SIGAR                                 Special Inspector General for
                                       Afghanistan Reconstruction




                                                 SIGAR 14-3 Audit Report




      Afghan National Army: Combined Security Transition
      Command-Afghanistan Lacks Key Information on
      Inventory in Stock and Requirements for Vehicle
      Spare Parts




                                                         OCTOBER

                                                     2013
SIGAR Audit 14-3-AR/ANA Spare Parts
SIGAR
                                                       October 2013
                                                       Afghan National Army: Combined Security Transition Command-
                                                       Afghanistan Lacks Key Information on Inventory in Stock and
                                                       Requirements for Vehicle Spare Parts


Special Inspector General for                          SIGAR AUDIT 14-3 AUDIT REPORT

Afghanistan Reconstruction
WHAT SIGAR REVIEWED                                    WHAT SIGAR FOUND
From 2004 through 2013, the Combined                   The Combined Security Transition Command (CSTC-A) is
Security Transition Command (CSTC-A)                   placing orders for vehicle spare parts without accurate
purchased approximately $370 million in                information on what parts are needed or are already in stock.
spare parts to maintain and repair                     CSTC-A relies on the Afghan National Army (ANA) to maintain
vehicles for the Afghan National Army                  accurate inventory records of vehicle spare parts availability
(ANA).                                                 and future requirements to minimize spare parts shortages.
                                                       However, the ANA is not consistently using or updating its
A reliable and integrated logistics system
                                                       inventory to track:
is needed to provide spare parts to
maintain vehicle and equipment                             •    what parts are in stock,
readiness for security operations.                         •    what parts have been ordered by ANA units, and
However, questions have been raised                        •    when and where those parts are supposed to arrive.
about CSTC-A’s support of the ANA’s
                                                       The ANA did not keep fully accurate records at any of the four
logistics capabilities. For example, in
                                                       locations—three Regional Logistic Supply Centers (RLSC) and
October 2012, the International Security
                                                       the Central Supply Depot (CSD) — where SIGAR conducted
Assistance Force Commander’s Advisory
                                                       parts inventories. SIGAR also found that the RLSCs and the
and Assistance Team reported that CSTC-
                                                       CSD are not consistently updating Afghan Ministry of Defense
A could not account for approximately
                                                       (MOD) forms to maintain a record of parts due to be received
$230 million worth of spare parts for the
                                                       by and distributed to ANA units in accordance with an MOD
Afghanistan National Security Forces and
noted that, due to the lack of
accountability for these parts, CSTC-A
ordered additional spare parts worth more
than $138 million. The team referred this
matter to SIGAR and asked that SIGAR
examine the matter further.
The objectives of this audit were to assess
whether (1) CSTC-A’s estimates for ANA
vehicle spare parts were based on
accurate requirements; and (2) CSTC-A
has sufficient internal controls to account
for vehicle spare parts to prevent waste,
fraud, and abuse.




                                                          Non-inventoried Vehicle Spare Parts in RLSC-South
                                                          Source: SIGAR April 17, 2013.



 For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
decree. Further, the ANA is not consistently inventorying
parts as they are received. RLSC-South and the CSD
contain ANA vehicle spare parts that have not been
inventoried. Without accurate inventories, CSTC-A does
not have data to justify the number of vehicle spare parts
authorized or purchased for the RLSCs and the CSD.
Moreover, the ANA continues to place orders for vehicle
spare parts without demand or usage data. From 2011
through April 2013, CSTC-A modified the authorized stock
quantities required at the RLSCs two times, reducing the
authorized types of spare parts needed from 3,843 to
576. However, CSTC-A placed orders for $130 million
worth of parts based on the initial 3,843 authorization.
Furthermore, according to CSTC-A officials, they do not
have records to show how the 3,843 total was
determined. In addition, CSTC-A ordered these parts
without knowledge of what parts the ANA already had in
stock because there is no recorded inventory of spare
parts.
CSTC-A is able to track vehicle spare parts into
Afghanistan for orders placed during 2010 through 2012,
but could not document that the parts were transferred to
the ANA. SIGAR found that CSTC-A cannot provide
documentation confirming delivery or title transfer to the
ANA for vehicle spare parts delivered during 2010 through               Non-inventoried Vehicle Spare Parts in the Central
2012. SIGAR randomly sampled 68 transportation control                  Supply Depot
numbers from orders during this time period and
                                                                        Source: SIGAR site visit, April 30, 2013.
requested that CSTC-A provide documentation showing
their origin, shipping, and distribution. CSTC-A was able to
account for the origin of all 68 control numbers (100                    WHAT SIGAR RECOMMENDS
percent) and shipping destination for 58 control numbers
                                                                         To ensure that CSTC-A orders vehicle
(85 percent). However, it could account for the delivery to
                                                                         spare parts based on accurate information
the ANA of only 7 control numbers (10 percent). Moreover,
                                                                         and valid requirements, and to prevent the
CSTC-A was unable to provide documentation confirming
                                                                         U.S. government from purchasing
transfer to the ANA for any of the 68 control numbers.
                                                                         unnecessary parts, SIGAR recommends
According to a CSTC-A official, a June 2013 meeting with
                                                                         that the Commanding General, CSTC-A
SIGAR helped raise the issue of the lack of information on
                                                                         Ministerial Advisory Group, (1) defer non-
the location of vehicle spare parts and provided the
                                                                         critical vehicle spare parts purchases until
support needed to fix the accountability problem.
                                                                         the ANA has conducted and verified the
In June 2013, CSTC-A began implementing new                              required inventories in accordance with
procedures for incoming containers of vehicle spare parts.               the requirements set forth under MOD
To accelerate transferring property to the ANA and to                    Decree 4.0, including the accurate
ensure that all vehicle spare parts remain in U.S. custody               recording of MOD Form 2s; and (2) require
until title transfer has taken place, CSTC-A now plans to                the ANA to submit inventory reports to
redirect all incoming vehicle spare parts containers to a                CSTC-A that correctly identify spare part
U.S. transfer point prior to officially transferring them to             demand and usage rates.
the ANA. In addition, CSTC-A is attempting to repossess
                                                                         In commenting on this report, CSTC-A
vehicle spare parts until the ANA can conduct an official
                                                                         concurred with both recommendations
inventory and transfer. According to CSTC-A officials, a U.S.
                                                                         and provided additional technical
and Afghan official will be on-hand to conduct a joint
                                                                         comments, which SIGAR incorporated, as
inventory and officially transfer the vehicle spare parts to
the ANA.                                                                 appropriate.

    For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
October 16, 2013


The Honorable Charles T. Hagel
Secretary of Defense
General Lloyd J. Austin III
Commander, U.S. Central Command
General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan and
  Commander, International Security Assistance Force
Major General Kevin R. Wendel
Commanding General, Combined Security Transition Command-Afghanistan
  Ministerial Advisory Group


This report discusses the results of SIGAR’s audit of spare parts procurement for the Afghan
National Army (ANA) which found that information is lacking regarding vehicle spare parts
inventories and requirements. We recommend that the Commanding General, Combined
Security Transition Command-Afghanistan (CSTC-A) Ministerial Advisory Group, (1) defer non-
critical vehicle spare parts purchases until the ANA has conducted and verified the required
inventories in accordance with the requirements set forth under Ministry of Defense (MOD)
Decree 4.0, including the accurate recording of MOD Form 2s; and (2) require the ANA to
submit inventory reports to CSTC-A that correctly identify spare part demand and usage rates.
We received written comments on a draft of this report from CSTC-A Ministerial Advisory Group,
which concurred with both recommendations addressed to it. These comments are
incorporated in the report, as appropriate, and reproduced in appendix II.
SIGAR conducted this audit under the authority of Public Law No. 110-181; the Inspector
General Act of 1978, as amended; and in accordance with generally accepted government
auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                             TABLE OF CONTENTS



Background .................................................................................................................................................................. 2

CSTC-A Lacks Key Information for Ensuring Its Estimates for Needed ANA Vehicle Spare Parts Are Based on
Accurate Requirements ............................................................................................................................................... 4
CSTC-A’s Internal Controls Are Insufficient To Account for Vehicle Spare Parts ...................................................... 7

Conclusion.................................................................................................................................................................... 9

Recommendations ...................................................................................................................................................... 9

Agency Comments ..................................................................................................................................................... 10

Appendix I - Scope and Methodology ....................................................................................................................... 11

Appendix II - Comments from the Combined Security Transition Command-Afghanistan Ministerial Advisory
Group .......................................................................................................................................................................... 13

Appendix III - Acknowledgments ............................................................................................................................... 17


FIGURES

Figure 1 - Foreign Military Sales Process for Ordering and Distributing Vehicle Spare Parts ................................. 2
Figure 2 - CSD and RLSC Regions .............................................................................................................................. 3


 PHOTOS

Photo 1 - Vehicle Spare Parts Not Inventoried in RLSC-South .................................................................................. 5

Photo 2 - Non-Inventoried Vehicle Spare Parts at the Central Supply Depot ........................................................... 5




SIGAR Audit 14-4-AR                                                                                                                                                      Page i
ABBREVIATIONS

            ANA       Afghan National Army

            CSD       Central Supply Depot

            CSTC-A    Combined Security Transition Command- Afghanistan
            DOD       Department of Defense

            DSCA      Defense Security Cooperation Agency

            MOD       Ministry of Defense
            RLSC      Regional Logistics Support Center




SIGAR Audit 14-3-AR                                                       Page ii
From 2004 through 2013, the Combined Security Transition Command-Afghanistan (CSTC-A) 1 purchased
approximately $370 million in spare parts to maintain and repair vehicles for Afghan National Army (ANA)
security operations. CSTC-A is responsible for providing these parts through the Afghanistan Security Forces
Fund. 2
To ensure that the ANA is prepared for security operations, a reliable and integrated supply system is needed
to provide spare parts to maintain vehicle and equipment readiness. In 2011, the Department of Defense
(DOD) Inspector General reported that a shortage of vehicle spare parts caused a significant maintenance
backlog, and without a robust and reliable supply system to provide sufficient spare parts, the ANA could not
maintain acceptable and sustainable levels of vehicles and equipment readiness. 3 In October 2012, the
International Security Assistance Force Commander’s Advisory and Assistance Team reported that CSTC-A
could not account for approximately $230 million worth of spare parts for the Afghanistan National Security
Forces and noted that, due to the lack of accountability for these parts, CSTC-A ordered additional spare parts
worth more than $138 million. 4 The team referred this matter to SIGAR and asked that we examine it further.
Additionally, in a December 2012 progress report to Congress, DOD reported that the ANA’s logistical
capabilities varied widely across ANA units, which prevented its logistics system from operating in an integrated
and cohesive manner. 5
The objectives of this audit were to assess whether (1) CSTC-A’s estimates for ANA vehicle spare parts were
based on accurate requirements; and (2) CSTC-A has sufficient internal controls to account for vehicle spare
parts to prevent waste, fraud, and abuse. 6
To accomplish these objectives, we reviewed relevant laws, U.S. foreign military sales guidance, and Afghan
Ministry of Defense (MOD) guidance. We reviewed federal regulations and standard operating procedures for
receiving, inventorying, and transferring vehicle spare parts to the ANA supply chain and available historical
data and documentation on the number of vehicle spare parts authorized for ANA depots throughout
Afghanistan. To test the accuracy and completeness of the ANA’s inventory records, we conducted inventories
at 3 of the 6 ANA Regional Logistics Support Centers (RLSCs)—RLSCs North, South, and Southwest—and at the
Central Supply Depot (CSD) in Kabul. To determine whether CSTC-A could account for vehicle spare parts
provided to the ANA, we chose a random sample of parts shipments and asked CSTC-A to provide
documentation showing that parts were shipped and received in country in accordance with federal regulations
and CSTC-A standard operating procedures. We conducted our audit work in Kabul, Mazar-e-Sharif, Helmand,
and Kandahar, Afghanistan from November 2012 through October 2013, in accordance with generally
accepted government auditing standards. Appendix I contains a more detailed discussion of our scope and
methodology.




1 After SIGAR auditors completed a draft of this report, CSTC-A added “Ministerial Advisory Group” to its name and became

CSTC-A MAG. For purposes of the report and its findings, we refer to CSTC-A.
2 Congress created the Afghanistan Security Forces Fund to provide the Afghan National Security Forces, which include the

ANA and Afghan National Police, with equipment, supplies, services, and training to develop their capacity to provide
security throughout Afghanistan.
3 Department of Defense Office of Inspector General, Assessment of U.S. Government and Coalition Efforts to Develop the

Logistics Sustainment Capability of the Afghan National Army, DODIG-2012-028, December 9, 2011.
4 International Security Assistance Force Commander’s Advisory and Assistance Team (CAAT), CAAT Special Report:

$230,000,000 in USG Owned, Unaccounted Class IX Repair Parts, Triggering Reorders, October 8, 2012.
5DOD, Report on Progress Towards Security and Stability in Afghanistan, December 2012. This report is submitted in
accordance with Section 1230 of the National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181), as
amended, and Section 1221 of the National Defense Authorization Act for Fiscal Year 2012.
6 We limited our review to vehicle spare parts CSTC-A provided to the ANA. We did not include an assessment of CSTC-A’s

accountability over vehicle spare parts provided to the Afghan National Police because spare parts used to repair and
maintain police vehicles are provided by contractors, not CSTC-A.

SIGAR Audit 14-3-AR                                                                                                Page 1
BACKGROUND

CSTC-A purchased approximately $370 million in vehicle spare parts using the foreign military sales program
managed by the Defense Security Cooperation Agency (DSCA). 7 Established procedures for obtaining and
transferring these items are as follows: CSTC-A determines requirements for spare parts orders and manages
and maintains accountability until procured parts are received in country and officially transferred to the ANA.
CSTC-A consults with the Afghan MOD to determine the number of parts needed to support the maintenance
and repair of ANA vehicles and submits a request to DSCA for approval to procure the parts. Once DSCA
approves, CSTC-A forwards the request and associated funds to the U.S. Army’s “TACOM Life Cycle
Management Command” let contracts to procure the parts. When the parts are ready for shipment, the
Defense Contract Management Agency, the DOD entity responsible for contract administration, accepts the
parts on behalf of the U.S. government, and transfers them to the U.S. Army’s Surface Distribution and
Deployment Command for delivery into country via the Defense Transportation System. CSTC-A must retain
custody of spare parts shipments until an official inventory is completed and a materiel receiving list is
prepared. Custody, title, and responsibility for the parts are officially transferred to the ANA after these steps
have been completed. Figure 1 presents the foreign military sales process for ordering and distributing vehicle
                                                                           spare parts.
Figure 1 - Foreign Military Sales Process for Ordering and
Distributing Vehicle Spare Parts
                                                                        ANA Logistics Operations and
                                                                        Procedures
                                                                        Spare parts provided by CSTC-A are
                                                                        currently sent to the CSD in Kabul. The
                                                                        depot is responsible for receiving,
                                                                        accounting for, managing, and shipping
                                                                        vehicle spare parts and additional
                                                                        supplies to 6 RLSCs throughout the
                                                                        country. Within each RLSC, Forward
                                                                        Supply Depots receive and distribute
                                                                        vehicle spare parts to their designated
                                                                        ANA units for vehicle maintenance. Spare
                                                                        parts provided through the ANA system
                                                                        are transported by the ANA’s Central
                                                                        Movement Agency, which provides military
                                                                        ground transportation services for the
                                                                        movement of personnel, equipment, and
                                                                        supplies from the central depot in Kabul
                                                                        to all RLSCs. Figure 2 presents a map of
                                                                        the CSD and the six RLSCs.




Source: SIGAR Analysis Based on CSTC-A Documentation


7
 Under DOD Instruction 4140.66, DOD requires DSCA to ensure that all responsible DOD components have established
procedures that meet the requirement s of section 1225 of Public Law 111-84, which requires that the Secretary of
Defense establish a program to provide for the registration and end-use monitoring of defense articles and defense
services transferred to the governments of Afghanistan and Pakistan.

SIGAR Audit 14-3-AR                                                                                           Page 2
Figure 2 - CSD and RLSC Regions




Source: CSTC-A

The ANA manages vehicle spare parts using procedures that were developed using similar U.S. Army supply
chain management procedures. 8 The ANA’s procedures are codified in MOD decrees, which serve as the basis
for logistics regulations in Afghanistan and regulate policy and support procedures, materiel accountability, and
parts management. The procedures and forms specified in MOD Decree 4.0 are intended to assist the ANA in
managing the transfer of vehicle spare parts through the supply chain. Under this decree, four main forms
assist the ANA in the management of vehicle spare parts:
    •    MOD Form 14—Materiel Request Form (used to request parts)
    •    MOD Form 8—Materiel Receiving Report (used as a receipt form at the national and regional ANA
         depots. This form includes documentation of the number of provided parts)
    •    MOD Form 9—ANA Issue and Turn-in Document (used for parts issuance to a subordinate command)
    •    MOD Form 2—Stock Accounting Record (used to account for parts inventory in stock and to collect
         demand data)
To assist the ANA in better tracking its spare parts inventory, in September 2009 CSTC-A began deploying an
automated inventory management system—the Core Inventory Management System--for the ANA. The Core
Inventory Management System is a web-based system capable of providing a global view of inventory in stock

8 ANA logistics procedures are based on Army Pamphlet 710-2-2, Supply Support Activity Supply System: Manual

Procedures, September 30, 1998.

SIGAR Audit 14-3-AR                                                                                            Page 3
throughout the country and providing data on usage or demand rates. However, due to connectivity issues,
CSTC-A officials stated that only the CSD uses the system. In addition, CSTC-A officials told us the CSD does not
keep the system up to date.


CSTC-A LACKS KEY INFORMATION FOR ENSURING ITS ESTIMATES FOR NEEDED
ANA VEHICLE SPARE PARTS ARE BASED ON ACCURATE REQUIREMENTS

CSTC-A is placing orders for vehicle spare parts without accurate information on what parts are already in
stock. CSTC-A relies on the ANA to maintain accurate inventory records of vehicle spare parts availability and
future requirements to minimize spare parts shortages. However, the ANA is not consistently updating its
inventory to track current stock, stock orders, and scheduled delivery dates. Accurate inventory records would
prevent the unnecessary purchase of parts already on hand, help determine the full costs of government
programs that use these parts, and allow decision-makers to make informed decisions about operational
readiness. According to MOD Decree 4.0, the ANA is required to conduct a 100 percent physical inventory of all
parts on a yearly basis either by (1) a one-time closed inventory where a 100 percent wall-to-wall inspection
takes place or (2) an open inventory where 10 percent of the inventory is completed each month.
To test the accuracy and completeness of the ANA’s inventory records, we conducted inventories at 3 of the 6
ANA RLSCs—RLSCs North, South, and Southwest—and at the CSD in Kabul. 9 At each site, we preselected 20
critical parts and compared the site’s inventory records to the parts available. In addition, we selected parts at
each site and compared them to inventory records. 10 Overall, we found that the ANA’s records did not always
match the inventory quantities on the shelves:
       •    RLSC-North was able to provide accurate documentation for 36 of the 40 parts selected (90 percent);
       •    RLSC-South was able to provide accurate documentation for 24 of the 25 parts selected
            (96 percent); 11
       •    RLSC-Southwest was able to provide accurate documentation for 31 of the 40 parts selected
            (78 percent); and
       •    CSD was able to provide accurate documentation for 18 of the 40 parts selected (45 percent). 12
The ANA generally uses a manual system to manage its spare parts inventory. Under this system, the ANA
tracks parts using MOD Form 2s, or written stock accounting records. 13 The MOD Form 2 records increases



9 We selected RLSC-Southwest in Helmand and RLSC-South in Kandahar because CSTC-A’s guidance stated that these

areas had a higher level of militant activity and received a higher number of spare parts orders. We selected RLSC-North in
Mazar-e-Sharif because it had the least amount of militant activity and received the fewest number of parts. Finally, we
selected the CSD because it is the ANA’s national supply depot where all parts are currently received and processed for
distribution throughout Afghanistan.
10   For additional detail on this methodology, see appendix I.
11 We were unable to randomly select parts off the shelf because the depot did not have a designated warehouse. Instead,

parts were stored in different containers at the site. In lieu of a 20 item inventory, we selected five containers, identified
one part on the container’s inventory spreadsheet, and matched the number stored in the container to the number
recorded on the container’s inventory spreadsheet. The ANA’s documentation for these five parts matched our inventory
counts.
12 We were unable to match the full inventory of parts with the documentation because individual parts were scattered

throughout the CSD. At the sites visited, many of the preselected 20 critical parts were not in stock. In such instances, if the
ANA did not have the part in stock and the ANA did not have records of the part, this was considered accurate. For
example, RLSC-North had 2 of the 20 critical parts in stock or inventory records; RLSC-South had 9 of the 20 critical parts
in stock or inventory records; RLSC-Southwest had 6 of the 20 critical parts in stock or inventory records; and the CSD had
4 of the 20 critical parts in stock or inventory records. If counting only the parts that were at the site, RLSC-North’s accuracy
decreases to 16 out of 22 parts in stock (70 percent) and RLSC-Southwest’s accuracy decreases to 17 out of 27
(63 percent).

SIGAR Audit 14-3-AR                                                                                                      Page 4
and decreases in spare part levels and, according to MOD Supply Decree 4.0, is to be used to gather usage
data to calculate restocking levels. According to MOD Decree 4.0, the RLSCs should use MOD Form 2 to keep
track of requested and received parts, so that they can adjust their inventory procedures based on historical
demand to meet changing budget or operational conditions. According to CSTC-A officials, the RLSCs and CSD
are not consistently updating MOD Form 2s to maintain a record of parts due in and due out in accordance
with MOD Decree 4.0. For example, we found:
    •    At RLSC-North, while the ANA prepares MOD Form 2s to account for parts inventory in stock, the ANA
         does not keep track of parts due to be distributed to ANA field units.
    •    At RLSC-Southwest, the ANA had a unique inventory system that was separate from the MOD Form 2
         system and the ANA only updates the MOD Form 2s on certain shipments.
    •    At RLSC-South, the ANA had a unique inventory separate from the MOD Form 2 system, as well as
         individual inventory sheets within each storage container denoting the type of part and quantity in
         stock. However, the ANA did not keep track of inventory due out to ANA units at this location. In
         addition, the ANA received parts from CSTC-A in November 2012, but has not inventoried them
         because it is awaiting construction of a new warehouse facility to store the parts. Photo 1 shows parts
         not inventoried at RLSC-South.
    •    At the CSD, the ANA records the receipt of parts into the depot on MOD Form 2s or spreadsheets, but
         does not record decreases on MOD Form 2s when parts are sent out. According to CSTC-A officials, the
         ANA is consistently behind because the depot continues to receive shipments of parts and lacks the
         staff to conduct inventories. CSTC-A officials told us that the ANA has inventoried approximately 65 to
         75 percent of spare parts at the CSD. Photo 2 shows parts not inventoried at the CSD.


  Photo 1 - Vehicle Spare Parts Not Inventoried in RLSC-                  Photo 2 - Non-Inventoried Vehicle Spare
  South                                                                   Parts at the Central Supply Depot




  Source: SIGAR April 17, 2013.                                           Source: SIGAR April 30, 2013.




13 The stock record set contains a complete stock record set for each authorized stock list item. These are MOD Form 2,

MOD Form 1298 (stock due to go out), and MOD Form 1299 (stock due in). One or more forms associated with a single
part number or item are kept together as a stock record set.

SIGAR Audit 14-3-AR                                                                                                Page 5
In comments on a draft of this report, CSTC-A stated that efforts are underway to inventory vehicle spare parts
previously purchased in support of the ANA, ensure that they are accounted for, and verify the accuracy of
current inventory data. In addition, the CSD is scheduled to begin its annual 100 percent inventory, which
CSTC-A stated will further improve the accuracy of inventory data and warehouse efficiency.


CSTC-A Lacks the Data It Needs on Vehicle Spare Parts to Develop Purchase
Requirements
Without an accurate inventory, CSTC-A does not have data to justify the number of vehicle spare parts either
authorized or purchased for RLSCs throughout the country, and it is continuing to fill ANA orders for vehicle
spare parts without demand or usage data. Since 2011, CSTC-A and the MOD have continually modified the
number of authorized vehicle spare parts for the RLSCs without accurate inventory or usage figures to justify
these modifications.
From 2011 through April 2013, the authorized stock quantities at the RLSCs were modified two times,
reducing the authorized types of spare parts from 3,843 to 576. 14 However, during this time period, CSTC-A
placed orders for $130 million worth of parts based on the initial 3,843 authorization, but according to CSTC-A
officials, they do not have records to show how the 3,843 total was determined. DOD Supply Chain
Management procedures allow DOD to provide supply depots with an initial supply of vehicle spare parts using
demand and usage data. CSTC-A officials, however, had no historical demand and usage data from the ANA or
contractors to support their $130 million in parts orders.
CSTC-A Special Plans and Operations officials stated that they distributed the majority of the $130 million in
spare parts orders to the RLSCs to provide an initial supply of parts. However, CSTC-A ordered these parts
without knowledge of what parts the ANA already had in stock. With inventory sitting at depots unrecorded in
the ANA system, CSTC-A likely ordered duplicate parts. In addition, CSTC-A advisors at three RLSCs reported
that they have not seen increased inventories or received unrequested parts. According to CSTC-A advisors,
parts may have been intercepted and distributed by ANA Corps Commanders to supporting units before they
were ever recorded in RLSC stocks or MOD Form 2s.
In addition, we asked CSTC-A if the quantity of spare parts within each part type was adjusted to fit the needs
of each RLSC. According to a CSTC-A Special Plans and Operations official, CSTC-A has not adjusted the
number of parts within each part type for each RLSC because there is no demand data on which to base this
kind of assessment. According to the official, each RLSC is responsible for adjusting the number of different
part types in the authorized stock list based on the demand and consumption rates at the depot. However, the
ANA is not keeping demand or usage data, using MOD Form 2s or any other mechanism, and therefore has no
ability to project or forecast accurate quantities of replacement parts to sustain ANA operations.
CSTC-A has taken some steps to identify parts that are critical for sustaining ANA vehicles. For example, in
                                                                                           15
October 2012, CSTC-A placed $2.4 million in orders to fill three RLSCs with critical parts. According to CSTC-A
officials, they reviewed ANA maintenance and work order data to determine which vehicles were consistently in
need of repairs and asked CSTC-A advisors co-located at the RLSCs to provide a list of parts that, in their


14 Using contractor demand data provided by the ANA’s vehicle maintenance contractor, in April 2012, CSTC-A

recommended that the ANA reduce the number of vehicle spare part types at RLSCs to 1,709. CSTC-A developed the 1,709
spare part types using contractor demand and usage data for the three most highly utilized vehicles in the ANA—the High-
Mobility Multipurpose Wheeled Vehicle, Ford Ranger, and International Workstar. According to CSTC-A officials, in April
2013, the MOD developed its own parts list and approved 576 spare part types for each RLSC. CSTC-A officials from
Special Plans and Operations stated that the MOD developed the number of spare part types based on the ANA’s three
most frequently used vehicles. CSTC-A officials reported that the MOD will direct the CSD and Central Movement Agency to
package and ship these parts out to the RLSCs, if they are available.
15 According to CSTC-A, critical parts are parts that are critical for sustaining the ANA’s three most highly used vehicles—

High-Mobility Multipurpose Wheeled Vehicle, Ford Ranger, and International Workstar. According to CSTC-A, it has identified
a total of 94 parts as critical to sustaining ANA vehicles.

SIGAR Audit 14-3-AR                                                                                                  Page 6
opinion, were considered critical to sustaining the ANA vehicle fleet at their locations. CSTC-A used this
information to establish a critical parts list, containing parts consistently in demand to keep vehicle fleets
functioning.
In December 2012, CSTC-A placed orders worth approximately $3.8 million for vehicle spare parts to fill lower
level supply depots under the RLSCs and provide readiness drivers to the RLSCs. For fiscal year 2014, CSTC-A
has placed $12 million in orders to fill lower level supply depots under the RLSCs to 100 percent of their
authorized stock levels. CSTC-A plans to deliver these parts directly to the CSD for the ANA to distribute directly
to the RLSCs. However, even if the shipments are delivered to the CSD, parts intended for these units may
never reach their intended destination because of the depot’s inventory backlog.
When we asked CSTC-A how it will determine the number of spare parts needed to support future ANA vehicle
maintenance, CSTC-A reported that it plans to turn over spare parts purchasing directly to the ANA. CSTC-A will
provide the ANA a specified dollar amount under a “Defense Grant” for the purchase of spare parts. The grant
process enables the ANA to generate and order spare parts according to a prioritized requirement list.
According to CSTC-A officials, limiting the funds provided for spare parts will force the ANA to figure out how to
best forecast demand and usage rates, whether they chose to use the MOD Form 2 or not. At this time, the
ANA has not yet ordered spare parts using this mechanism. Giving the ANA more responsibility for tracking and
shipping vehicle spare parts raises concerns, as the ANA is not yet consistently using or updating its inventory
to track what is currently in stock, what stock has been ordered by ANA units, and when and where stocks are
supposed to arrive.
In comments on a draft of this report, CSTC-A stated that planning is ongoing to establish a review process for
the ANA, which will incorporate demand data derived from ANA databases and ANA maintenance contractor
data. In addition, CSTC-A noted that as the training level of logistical specialties matures, ANA compliance with
MOD Decree 4.0 will also result in greater inventory accuracy, allowing CSTC-A to use this information to refine
the ANA’s authorized stock quantities and inform future purchases.


CSTC-A’S INTERNAL CONTROLS ARE INSUFFICIENT TO ACCOUNT FOR VEHICLE
SPARE PARTS

Although CSTC-A was able to track most vehicle spare parts shipments to Afghanistan for orders placed during
2010 through 2012, it was unable to provide documentation that these parts were transferred to the ANA. In
accordance with the DOD Instruction implementing section 1225 of the National Defense Authorization Act for
Fiscal Year 2010, CSTC-A is required to maintain a detailed record of the origin, shipping, and distribution of all
defense articles, including vehicle spare parts, transferred to the Afghan government. 16 CSTC-A relies on the
U.S. Army’s Surface Distribution and Deployment Command and In-Transit Visibility Cell to track deliveries to
Afghanistan and the location of containers. Additionally, DSCA guidelines state that CSTC-A is to retain custody
of shipments delivered until an official inventory is completed and a materiel receiving list is prepared. After
these steps have been completed, custody of the parts is officially transferred to the ANA when CSTC-A and the
ANA both sign a transfer and receipt document. Further, DSCA guidelines state that a joint inventory of
container contents be conducted by CSTC-A and the ANA once containers arrive at the CSD; however, CSTC-A
relies on the ANA to inventory container contents and document official transfer.
CSTC-A could not provide us with documentation confirming transfer to the ANA for vehicle spare parts
delivered from 2010 through 2012. From the orders placed during this period, we randomly sampled 68


16 National Defense Authorization Act for Fiscal Year 2010, Pub. L. No. 111-84, § 1225, 123 Stat. 2523 (2009). In

accordance with the DOD Instruction implementing section 1225, CSTC-A is required to maintain records on the movement
of shipments from point of origin (e.g. originating warehouse or base) to a port of embarkation, such as a seaport or aerial
port in the United States; from the port of embarkation to the port of debarkation (e.g., aerial or seaport) in the U.S. Central
Command area of responsibility, such as Pakistan; and from the port of debarkation to the designated point of need in
theater (ANA depots); as well as records on the official transfer of parts to the ANA.

SIGAR Audit 14-3-AR                                                                                                      Page 7
shipments using transportation control numbers, 17 from the Security Cooperation Information Portal 18 and
requested that CSTC-A provide documentation showing location of origin, shipping, and confirmation of
distribution to determine compliance with DODI 4140.66 and section 1225 of the National Defense
Authorization Act for Fiscal Year 2010. 19
       •    Origin—CSTC-A was able to identify the origin of all 68 control numbers (100 percent).
       •    Shipping—CSTC-A officials used the Surface Distribution and Deployment Command database to show
            the shipping destination for 58 control numbers (85 percent). For the remaining 10 control numbers
            (15 percent), CSTC-A was unable to show the shipping destination using the Surface Distribution and
            Deployment Command because they had no system for identifying which container held a specific
            control number. 20
       •    Confirmation of Distribution—CSTC-A was able to confirm the delivery to the ANA for only 7 control
            numbers (10 percent) using transportation contractor-provided information used by Surface
            Distribution and Deployment Command. For the remaining 62 control numbers CSTC-A could not
            provide confirmation of distribution because they did not maintain records of delivery or processed the
            necessary transfer documentation.
CSTC-A has not been inventorying or documenting official transfer of vehicle spare parts to the ANA in
accordance with DSCA guidelines. For foreign military sales items such as vehicles and weapons, shipments
pass through transfer points where CSTC-A officials can inventory shipments before transfer to the ANA.
However, according to CSTC-A officials spare parts are shipped directly to the ANA with no transfer point.
Because there is no transfer point to inventory container contents, CSTC-A relies solely on the ANA to inventory
container contents once parts arrive at the CSD and subsequently waits for the ANA to produce an MOD Form
9 to document official title transfer. CSTC-A officials at the CSD provide documentation to CSTC-A’s Security
Assistance Office—the section within CSTC-A responsible for managing vehicle spare parts until title to the
parts are transferred to the Afghan government—that the container was sealed upon arrival and a copy of the
ANA’s MOD Form 9 when the ANA completes the container inventory. However, CSTC-A officials stated that
some containers sit for up to 1 year in overflow lots until the ANA is ready to inventory them, leaving contents
susceptible to theft. These officials stated that CSTC-A’s procedures did not meet the intent of DSCA
guidelines—to conduct a joint inventory with the benefiting country, Afghanistan, while the materiel remains in
CSTC-A’s custody. However, these officials told us the procedures provide a work-around solution in lieu of a
transfer point for the U.S. government to inventory container contents upon arrival in Afghanistan.
In June 2013, after we provided a preliminary briefing on the findings of this audit, CSTC-A began implementing
new procedures for incoming containers of vehicle spare parts. CSTC-A identified a lack of accountability in its
procedures for transferring property to the ANA during the consolidation of coalition depots while parts
continued to flow into the CSD. According to a CSTC-A official, SIGAR helped call attention to the issues and
provided support to resolve them. To accelerate the property transfer process at the depot and to ensure that
all vehicle spare parts remain in U.S. custody until title transfer has taken place, CSTC-A plans to redirect all
incoming vehicle spare parts containers to a U.S. transfer point prior to their official transfer to the ANA. In


17   A Transportation Control Number is used to track shipments through the supply chain from origin to distribution.
18Security Cooperation Information Portal database provides the ability to view Foreign Military Sales case, line, requisition,
and supply level information. CSTC-A provided SIGAR with a spreadsheet containing all the vehicle spare part orders from
2010 through 2012 using this database.
19 At a 90-percent confidence level, our sample proportion fell within 10 percent of the actual population parameter. We

can say with 90-percent confidence that the total percentage of TCNs for which delivery confirmation or transfer cannot be
confirmed falls within 10 percent of the total observed in the sample, and is therefore between 90 percent and 100
percent of the 15,634 TCNs in the population.
20 SIGAR selected an individual part’s TCN based on the Security Cooperation Information Portal. When preparing parts for

shipment, an individual container may contain multiple TCNs of parts. Once a container is filled, it is assigned a new control
number. The Surface Distribution and Deployment Command database tracks shipments via container and not the
individual TCNs within.

SIGAR Audit 14-3-AR                                                                                                     Page 8
addition, CSTC-A is working to regain custody of spare parts not yet inventoried until official inventory and
transfer can occur. According to CSTC-A officials, both a U.S. and an ANA official will be on hand to conduct a
joint inventory and officially document the transfer of the vehicle spare parts to the ANA. Once the containers
are transferred, the ANA will transport them from the transfer point to the ANA CSD.
Although these new procedures may help ensure that vehicle spare parts are properly inventoried and officially
transferred to the ANA in accordance with, DODI 4140.66, section 1225 of the National Defense Authorization
Act for Fiscal Year 2010 and DSCA guidelines, it is too soon to determine whether the new procedures will be
effective. Additionally, CSTC-A officials have proposed transferring the official title for vehicle spare parts in the
United States, similar to the process used in other cases of foreign military sales. At the location where official
title is transferred, a U.S. government and ANA representative will physically inventory land and air shipments,
prepare the necessary paperwork, and formally conduct transfer to comply with DSCA guidelines for official
transfer. This approach would require increasing the Afghans’ involvement and responsibility in the logistical
process for getting parts into the country.


CONCLUSION

In light of the impending transition of security responsibilities to Afghan control in 2014, successful
management of vehicle spare parts is critical to ANA vehicle readiness. However, CSTC-A’s current process for
managing vehicle spare parts purchases leaves U.S.-purchased equipment and funds vulnerable to waste,
fraud, and abuse. While most individual vehicle spare parts are relatively inexpensive, total purchases of these
parts have amounted to approximately $370 million between 2004 and 2012, much of which cannot now be
accounted for. We commend CSTC-A for implementing new procedures during the course of the review that
improve the inventory and transfer documentation accountability. Before placing additional orders for vehicle
spare parts, CSTC-A needs ANA vehicle spare parts usage data if it is going to understand RLSC demand and
provide the parts necessary to maintain vehicle readiness. At present, CSTC-A relies on the ANA to provide this
information. However, the ANA is not providing these key inventory documents, including the MOD Form 2, and
therefore CSTC-A’s estimates for ANA vehicle spare parts are not based on accurate requirements. Until the
ANA conducts, maintains, and reports inventories with accuracy, CSTC-A’s inability to successfully manage
vehicle spare parts impairs the U.S. government‘s ability to equip the ANA with the correct amount and types of
additional spare parts. This lack of accountability for the ANA’s spare parts and their use also increases the
risk of their theft, loss, and mismanagement.


RECOMMENDATIONS

To ensure that CSTC-A orders vehicle spare parts based on accurate information and valid requirements, and
to prevent the U.S. government from purchasing unnecessary parts, we recommend that the Commanding
General, CSTC-A Ministerial Advisory Group,

    1. Defer non-critical vehicle spare parts purchases until the ANA has conducted and verified the required
       inventories in accordance with the requirements set forth under MOD Decree 4.0, including the
       accurate recording of MOD Form 2s.

    2. Require the ANA to submit inventory reports to CSTC-A that correctly identify spare part demand and
       usage rates.




SIGAR Audit 14-3-AR                                                                                            Page 9
AGENCY COMMENTS
SIGAR received comments on a draft of this report from CSTC-A Ministerial Advisory Group, which concurred
with both recommendations. Regarding the second recommendation, CSTC-A Ministerial Advisory Group
stated that although it concurs with requiring the ANA to provide demand and usage-rate data to substantiate
procurement requirements, implementing quarterly inventory reporting, as we initially recommended in our
draft report, is likely not feasible because it would be beyond the required inventory frequency and require
additional manpower or draw resources from receipt and issue of equipment. As a result, we removed the
quarterly requirement from our recommendation. In addition, CSTC-A Ministerial Advisory Group provided
additional comments and updates on implementation, which we incorporated into the report, as appropriate.




SIGAR Audit 14-3-AR                                                                                   Page 10
APPENDIX I - SCOPE AND METHODOLOGY

This audit focuses on the Combined Security Transition Command-Afghanistan’s (CSTC-A) accountability over
vehicle spare parts purchased with U.S. funds for the Afghan National Army (ANA). The objectives of this audit
were to assess whether (1) CSTC-A’s estimates for ANA vehicle spare parts were based on accurate
requirements; and (2) CSTC-A has sufficient internal controls to account for vehicle spare parts to prevent
fraud, waste, and abuse. To accomplish our objectives, we reviewed relevant laws, U.S. Foreign Military Sales
guidance, and Afghan Ministry of Defense (MOD) guidance. We reviewed foreign military sales information for
the period from fiscal year 2004 through fiscal year 2012.
To assess whether CSTC-A estimates for ANA vehicle spare parts are based on accurate requirements, we
reviewed available historical data and documentation on the number of vehicle spare parts authorized for ANA
depots throughout Afghanistan and compared CSTC-A’s data on the number of authorized parts with the
official Afghan MOD Decree allotting authorized quantities of vehicle spare parts to ANA depots dated February
8, 2011. We interviewed CSTC-A officials on the methodology used to develop the number of authorized
vehicle spare parts for ANA depots. We reviewed stock levels at ANA depots throughout Afghanistan and
compared them to levels authorized by the MOD. To determine which ANA depots to visit, we used guidance
provided to us by CSTC-A that considered the level of militant activity in an area and the number of vehicle
spare parts received by each location. We selected RLSC-Southwest in Helmand and RLSC-South in Kandahar
because CSTC-A’s guidance stated that these areas had a higher level of militant activity and received a higher
number of spare parts orders. We selected RLSC-North in Mazar-e-Sharif because it had the least amount of
militant activity and received the fewest number of parts. Finally, we selected the CSD because it is the ANA’s
national supply depot where all parts are currently received and processed for distribution throughout
Afghanistan.
To determine whether ANA documentation matches the quantity and location of spare parts in the depot, we
conducted a two-part sample. First, using a list of 20 randomly-pre-selected critical parts, we inventoried the
quantity of each part on the shelf and compared this total against the total documented in depot records.
Second, we chose 20 parts off the shelf using a random-counting method from a set starting place in each
location and compared the quantity on the shelf with the quantity documented in depot records. We chose to
select from both the shelves and the documentation to ensure a more balanced, representative, and location-
specific sample while still maintaining consistency across locations, and to help us more clearly note the
source of any discrepancies we identified. We chose a total of 40 parts at each location in order to meet the
central limits theorem (requiring that a sample size be greater than 30) while still working within time
limitations in each location. We also interviewed CSTC-A advisors and ANA representatives at each location to
identify any issues affecting ANA supply chain management. 21
To determine whether CSTC-A could identify the origin, shipping, and distribution of vehicle spare parts
between 2011 and 2012, we reviewed the legislative requirements and standard operating procedures for
receiving, inventorying, and transferring vehicle spare parts to the ANA supply chain and compared CSTC-A’s
implementation with the requirements. To determine whether CSTC-A could account for vehicle spare parts
provided to the ANA between 2011 and 2012, we chose a random sample of 68 of 15,633 transportation
control numbers (TCN) for shipments during this time. For each TCN, we assigned a random value and chose
the 68 highest entries. We asked CSTC-A to provide documentation that each selected transportation control
number was shipped and received in country in accordance with federal regulations and CSTC-A standard
operating procedures. We selected our sample using a 90 percent confidence level/10 percent margin of
error. We used computer-processed information to identify transportation control numbers and validated the
information we obtained through interviews. We determined that the data were sufficiently reliable to address

21 We were unable to randomly select parts off-the-shelf at RLSC-South because the depot did not have a designated

warehouse. Instead, parts were stored in different containers at the site. We selected five parts and matched the number
stored in the container to the number recorded on the inventory spreadsheet in the container. The ANA’s documentation for
these five parts matched our inventory counts.

SIGAR Audit 14-3-AR                                                                                             Page 11
our objectives. With respect to assessing internal controls and compliance with laws and fraud risk, we
reviewed CSTC-A’s compliance with federal regulations for foreign military sales as described under Section
1225 of the fiscal year 2010 National Defense Authorization Act, Department of Defense Instruction 4140.66,
and the Defense Security Cooperation Agency’s Security Assistance Management Manual. The results of our
assessment are included in the body of this report.
We conducted our audit work in Kabul, Mazar-e-Sharif, Helmand, and Kandahar, Afghanistan from November
2012 to October 2013, in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit objectives. SIGAR
conducted this audit under the authority of Public Law No. 110-181, as amended; the Inspector General Act of
1978, as amended; and in accordance with generally accepted government auditing standards.




SIGAR Audit 14-3-AR                                                                                   Page 12
APPENDIX II - COMMENTS FROM THE COMBINED SECURITY TRANSITION
COMMAND-AFGHANISTAN MINISTERIAL ADVISORY GROUP




SIGAR Audit 14-3-AR                                            Page 13
                                    CSTC-A MAG DRAIT REPORT RESPONSE
            " Afghan National Anny: Combined Security Transition Command-Afghanistan Lacks Key Jnfonnation on
                                 Inventory in Stock and RequirementS for Vehicle Spare Parts"
                                              (SIGAR Draft Report 14-1)

            I . Recommendation 1:
            The Commander, Combined Security Transition Command-Afghanistan will defer non-critical
            parts purchases until the ANA has conducted the required inventories in accordance with the
            requirements set forth under MOD Decree 4.0, including the accurate recording of MOD Form 2s.

            CSTC-A response:

               a. CSTC-A concurs with the SIGAR recommendation to defer non-critical parts purchases
                  until the Afghanistan National Army (ANA) has conducted the required inventories in
                  accordance with the requirements set forth under MOD Decree 4.0, including the accurate
                  recording of MOD Form 2s.

               b. CSTC-A only purchases parts deemed critical to sustaining the operational readiness of the
                  ANA, which is engaged in combat operations on a daily basis. The desire to improve
                  inventory visibility must be balanced with the need to sustain the operational capabilities
                  of a force in combat. Towards that end, efforts are underway to inventory CL IX parts
                  previously purchased in support of the ANA, ensure that they are accounted for in
                  CorefMS, and to verify the accuracy of current inventory data.
                     A A and coalition teams are partnered to conduct joint inventory and title transfer of
                  materiel inside containers at Central Supply Depot (CSD) Container Yard. The backlog of
                  containers at the CSD was created by the occurrence of two events: I) the consolidation of
                  the inventory and activities of numerous supply depots throughout Afghanistan into a
                  single national supply depot at CSD, resulting in the addition of approximately 1200
                  containers of materiel to the existing 1300 containers at CSD, and 2) the flood of
                  previously frustrated cargo from the many-months-long closure of the Pakistan Ground
                  Lines of Communication (PAKGLOC). Effort is ongoing and Coalition Forces (CF) and
                  the ANA are making steady progress.
                     To further improve accountability ofCL IX parts, the CSD is scheduled to begin its
                  annual I 00 percent inventory at the end of SEP 13. The results of the inventory and the
                  subsequent re-warehousing effort will further improve the accuracy of the stock record and
                  enhance warehouse operations and efficiency. A more accurate record of ANA CL IX
                  assets is becoming more readily available to better inform the development of future
                  requirements. CSTC-A also conducts a CL rx working group to refine the Authorized
                  Stockage Lists (ASL) and Prescribed Load Lists (PLL) to improve ANA vehicle
                  operational readiness.

            2. Recommendation 2:
            The Commander, Combined Security Transition Command-Afghanistan, requires the ANA to                See SIGAR
            submit quarterly inventory reports to CSTC-A that correctly identify demand and usage rates.
                                                                                                                Comment 1.
            CSTC-A response:

               a. CSTC-A concurs that the ANA provide quarterly inventory reports that correctly identify
                  demand and usage rates to Combined Security Transition Command-Afghanistan.


                                                       Page 2 of3




SIGAR Audit 14-3-AR                                                                                               Page 14
                                    CSTC-A MAG DRAFT REPORT RESPONSE
            " Afghan National Anny: Combined Security Transition Command-Afghanistan Lacks Key lnfonnation on
                                 Inventory in Stock and Requirements for Vehicle Spare Parts"
                                                 (SIGAR Draft Report 14-1)

               b. While CSTC-A concurs with requiring ANA to provide demand and usage-rate data to
                  substantiate procurement requirements, implementing quarterly inventory reporting is
                  likely not feasible. Per the MOD Decree 4.0, the ANA is required to conduct a I 00
                  percent physical inventory of all parts on a yearly basis by a one-time closed inventory
                  where a 100 percent wall-to-wall inspection takes place. Additionally, Decree 4.0 requires
                  an open inventory where 10 percent of the inventory needs to be done each month.
                  Additional inventory requirements would either demand additional manpower or draw
                  resources away from receipt and issue of equipment. It is not realistic or appropriate for
                  the coalition to demand inventory data beyond that which the sovereign government's
                  Ministry of Defense mandates in its decree. Instead, planning is ongoing to establish an
                  ASL review process for the ANA which will incorporate demand data derived from
                  CorelMS and the ANA Maintenance Contractor demand data. As the training level of
                  logistical specialties matures-and is showing steady improvement- ANA compliance
                  with MOD Decree 4.0 results in greater CoreiMS utilization and data accuracy. This
                  allows CSTC-A to leverage CoreiMS inventory and demand history data to refine ANA
                  ASLs and inform future CL IX procurement.



            APPROVED BY:                                       PREPARED BY:
            SEAN L. CASSIDY                                    LEON C. DAVIS JR.
            COL, DCOM-SPO                                      CW2, DCOM-SPO
            DEPUTY COMMANDER                                   CLIX COMMODITY MANAGER




                                                       Page 3 of3




SIGAR Audit 14-3-AR                                                                                             Page 15
                                SIGAR Response to CSTC-A MAG Comments
    1. SIGAR revised this recommendation in the final report to delete reference to a quarterly reporting
       requirement.




SIGAR Audit 14-3-AR                                                                                    Page 16
APPENDIX III - ACKNOWLEDGMENTS

Sara Margraf, Auditor in Charge
John Dettinger, Auditor
Mia Bonarski, Methodologist
Daniel Chen, Senior Program Manager




SIGAR Audit 14-3-AR                   Page 17
                      This audit report was conducted
                      under project code SIGAR-071A.




SIGAR Audit 14-3-AR                                     Page 18
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs            •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
